    AUDIT OF THE STATUS OF THE 

FEDERAL BUREAU OF INVESTIGATION’S 

        SENTINEL PROGRAM


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 14-31 

             September 2014

           AUDIT OF THE STATUS OF THE FEDERAL BUREAU OF 

                INVESTIGATION’S SENTINEL PROGRAM 


                                 EXECUTIVE SUMMARY 


      The FBI implemented Sentinel in July 2012 as an electronic information and
case management system that includes records management, workflow
management, evidence management, search and reporting capabilities, and
information sharing with other law enforcement agencies and the intelligence
community. Development of Sentinel first began in 2006 and at the time it was
expected to be completed in December 2009 at a cost of $425 million. This report,
the Department of Justice Office of the Inspector General’s tenth report on Sentinel,
examines Sentinel’s effect on the FBI’s daily operations while also reviewing
Sentinel’s project costs and the updates made to the program since it was
deployed.1

       This report focuses on users’ experiences with Sentinel’s functionality and
their ability to effectively and efficiently enter, search, and share information in the
FBI’s case management system. To accomplish this audit, we surveyed and
interviewed Sentinel users to assess user satisfaction with the system, examined
Sentinel’s budget and incurred costs, and reviewed the improvements that were
made to or planned for Sentinel as of July 2014.

        Our review found that most FBI employees routinely used Sentinel to
perform their daily investigative activities. The majority of FBI employees
responding to our survey reported that Sentinel has had an overall positive impact
on the FBI’s operations, making the FBI better able to carry out its mission, and
better able to share information. The majority of survey respondents also reported
that Sentinel had a positive impact on the FBI’s efficiency, by allowing
improvements such as reducing the number of lost documents, decreasing the
amount of time that it takes to get documents approved and improving the FBI’s
ability to share documents within the FBI.

      Sentinel users did, however, express dissatisfaction with two major functions
of Sentinel: search and indexing. Sentinel’s search function provides users the
capability to locate cases and specific case-related information within Sentinel.
According to a July 2012 FBI report, the search function is both flexible and
powerful enough to accommodate the substantial volume and wide variety of
information available for retrieval in Sentinel.2 Yet we found that only 42 percent of

       1
          The previous report assessed a July 2012 status report prepared by the FBI and submitted
by the Department of Justice in response a congressional directive. Appendix III contains a list of
prior OIG Sentinel reports.
       2
         U.S. Department of Justice, Congressional Report on The Federal Bureau of Investigation’s
Next Generation Information and Case Management Program (July 2012). Although submitted by the
Department of Justice, the FBI prepared the report.




                                                  i
the respondents to our survey who used Sentinel’s search functionality often
received the results they needed. In the comment section of our survey,
20 respondents also specifically stated that the search function in the Automated
Case Support system (ACS), the FBI’s prior case management system, was superior
to the search function in Sentinel.3 Twenty-three respondents also reported that
Sentinel returned either too many search results for users to reasonably review or
no results at all for a document the user knew existed. In response to our finding
regarding the search function, the Sentinel Program Manager told us that the FBI
recognized the need to improve Sentinel’s search function and provided
documentation to show that updates were made to improve the search function.
We have not assessed the impact of these updates on the user experience. The FBI
also told us that some of the user’s concerns will be addressed with the deployment
of Sentinel 1.5.

       The purpose of the indexing function is to designate, modify, and delete the
relationship between any two identifiers, such as the relationship between a person
and that person’s address.4 Based upon our fieldwork and survey results, we also
found that users’ primary concern with Sentinel’s indexing function was the amount
of administrative burden placed on the author of a document because the author is
also responsible for indexing the document. For example, 41 percent of survey
respondents reported that they spent more time indexing in Sentinel than they did
in ACS, the system that Sentinel replaced. One small subset of respondents -
Evidence Custodian Technicians and Electronic Surveillance Technicians expressed
concerns that Sentinel decreased their daily productivity by increasing the time
spent storing and managing evidence collected by the FBI. Similarly, a majority of
the Special Agents we surveyed reported that Sentinel decreased their daily
productivity and attributed the decrease to an increase in the administrative burden
posed by indexing, which has left them with less time for investigative activities.
We also found that Operational Support Technicians (OST), who played a significant
role in the indexing process prior to Sentinel’s deployment, were not always used
efficiently or assigned new tasks to replace their previous duties. Although the FBI
told us that they previously provided training to OST supervisors, to better manage
their OST staff, survey responses indicate concerns with the utilization of OSTs. As
a result, we believe that some user concerns, especially those surrounding
indexing, may require both a technical and business process solution.

       Survey respondents also reported that Sentinel was missing features that
they believed are critical to their duties, including features related to Sentinel’s
integration with other FBI information technology systems. We also found that
although respondents were generally satisfied with the job-specific training and
other resources the FBI offered, Special Agents and Supervisory Special Agents


        3
            Implemented in October 1995, ACS was the FBI’s case management system until July 2012.
        4
          The identifiers that can be indexed include persons, organizations, locations, incidents,
property, and communication accounts.




                                                   ii
reported a significant decline in their level of satisfaction with the availability of
technical and policy-related support after the deployment of Sentinel.

       Our review also found that the total budget for Sentinel since the deployment
of Sentinel 1.0 in July 2012 has increased from $451 million to $551.4 million. This
increase is the result of operations and maintenance during FY 2013 and 2014 and
the development of new functionality during FY 2014. As of July 2014, the FBI had
obligated $529.2 million of that $551.4 million and expensed $502.1 million.5

        Since the July 2012 initial release of Sentinel 1.0, the FBI has made four
significant updates to the system, all of which were associated with operations and
maintenance activities. Following the deployment of Sentinel 1.4 in
September 2013, the FBI began work on its fifth significant update, Sentinel 1.5,
which is scheduled to be deployed in October 2014. Sentinel 1.5 is intended to
support the needs of the FBI’s intelligence analysts by integrating legacy
intelligence systems and expanding Sentinel’s functionality by leveraging its
features to support the FBI’s intelligence mission.

      As part of our audit follow-up process, we also assessed the FBI’s efforts to
implement corrective actions in response to our prior recommendations and
determined that all of these recommendations have been adequately addressed.

       This report contains three new recommendations to the FBI to help ensure
that the FBI’s business processes are aligned with Sentinel’s design and
functionalities, and that Sentinel’s search and index functions efficiently meet the
needs of FBI employees.




        5
           The FBI has reported that, as of July 2014, it had obligated $432 million of the $451 million
available for Sentinel in FY 2012 at the time Sentinel 1.0 was deployed. However, as discussed in our
December 2011 and September 2012 reports, these obligated and budgeted amounts did not include
costs for 2 years of operations and maintenance after Sentinel was completed, costs that were part of
the $451 million cost estimate that the FBI projected for Sentinel in 2008.




                                                   iii
         AUDIT OF THE STATUS OF THE FEDERAL BUREAU OF 

              INVESTIGATION’S SENTINEL PROGRAM 


                                    TABLE OF CONTENTS 


INTRODUCTION .......................................................................................... 1

  Background .............................................................................................. 1 

  Sentinel 1.0 Major Functional Areas.............................................................. 2 

  Office of the Inspector General Audit Approach .............................................. 4 

FINDINGS AND RECOMMENDATIONS .......................................................... 6

SENTINEL PROGRAM STATUS ...................................................................... 6

  User Observations on Sentinel Functionality .................................................. 6 

  Sentinel Budget ....................................................................................... 21 

  Sentinel Enhancements ............................................................................ 21 

  Conclusion .............................................................................................. 23 

  Recommendations ................................................................................... 24 

STATEMENT ON INTERNAL CONTROLS ...................................................... 25

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ................ 26

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ............................ 27

  Objectives .............................................................................................. 27 

  Scope and Methodology ............................................................................ 27 

APPENDIX II- RESULTS OF ALL SENTINEL SURVEYS EXCLUDING 

  RESPONDENTS' BACKGROUND QUESTIONS ........................................... 30

APPENDIX III - OFFICE OF THE INSPECTOR GENERAL 

  SENTINEL REPORTS ............................................................................... 37

APPENDIX IV – FEDERAL BUREAU OF INVESTIGATION RESPONSE TO 

  THE DRAFT AUDIT REPORT .................................................................... 38

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT.................. 40

           AUDIT OF THE STATUS OF THE FEDERAL BUREAU OF 

                INVESTIGATION’S SENTINEL PROGRAM 



                                      INTRODUCTION 

       This is the tenth in a series of reports by the Department of Justice
Office of the Inspector General (OIG) examining Sentinel, the Federal Bureau of
Investigation’s (FBI) information and investigative case management system.

       In our prior report, released in September 2012, we assessed a Department
of Justice (Department) July 2012 status report on the Sentinel program that was
prepared in response to a congressional directive.6 We found that the estimated
cost of $441 million to complete Sentinel implementation did not include costs for
2 years of operations and maintenance (O&M) after Sentinel was completed. These
costs were part of the original projected cost of $451 million for Sentinel in 2008.
In addition, we found that the FBI continued to operate other information
technology (IT) systems that were supposed to be subsumed by Sentinel because
the FBI decided to not include certain functionality originally intended for Sentinel.
Although data provided by the FBI indicated that FBI employees were routinely
using Sentinel to perform their daily electronic workflow and investigative activities,
we were unable to confirm that the FBI had completed 15 of 17 key development
milestones listed in the schedule estimate contained in the July 2012 report.

Background

       The FBI’s attempt to move from a paper-based record system to an
electronic case management system began in 2001 with the Virtual Case File, a
major component of the FBI’s Trilogy IT modernization project. The FBI abandoned
the Virtual Case File project in 2005 after spending $170 million, and subsequently
announced the award of a $305 million contract to Lockheed Martin as part of a
project to develop Sentinel, a new electronic case management system. At the
time, the FBI estimated that the total cost of Sentinel would be $425 million.



       6
           The Conference Report accompanying Public Law 112-55 (enacted on November 18, 2011)
directed the Attorney General to provide a status report to the committees within 120 days of
enactment of the Act and to submit the report to the OIG at the same time for our review. The
Conference Report also directed the OIG to provide an assessment of the Department’s report to the
Committees on Appropriations within 60 days of receiving the Department’s report.

         The Department provided its report – Congressional Report on the Federal Bureau of
Investigation’s Next Generation Information and Case Management Program, July 3, 2012 – to the
Committees and to the OIG on July 9, 2012.

          The OIG provided its report – Interim Report on the Federal Bureau of Investigation’s
Implementation Status of the Federal Bureau of Investigation’s Implementation of the Sentinel
Project, Report 12-38 – to the Committees on September 7, 2012.




                                                  1

       In addition to being an official FBI records repository, Sentinel was intended
to be a user-friendly, web-based electronic case management system that would
give FBI agents and analysts the ability to manage evidence and automate the
document review and approval process. The FBI planned to migrate all data from
the Automated Case Support system (ACS) to Sentinel and eventually retire ACS.7

      In June 2007, the FBI announced that it had fully deployed Phase 1 of
Sentinel, which delivered a web-based portal to ACS and workboxes for FBI agents
and supervisors that summarized case information.8

        In June 2010, an independent assessment projected it would take the FBI an
additional 6 years and $351 million to finish Sentinel.9 In October 2010, the FBI
assumed from Lockheed Martin direct control of, and responsibility for, Sentinel
development activities and initiated an Agile approach to developing Sentinel.10
After extending its scheduled deployment 6 months, the FBI deployed a fully
functional Sentinel system, Sentinel 1.0, in July 2012. Since deploying Sentinel
1.0, the FBI has updated Sentinel to address routine defects that were discovered
after its deployment and to improve its performance and provide minor
enhancements to its functionality.11

Sentinel 1.0 Major Functional Areas

        In a July 2012 report to Congress, the Department stated that Sentinel
satisfied 14 major functional areas, including case management, collected items
management, indexing, records management, search, work item authoring and



       7
           Implemented in October 1995, ACS, which the FBI has not yet retired, was the FBI’s case
management system until July 2012. As of May 2011, ACS contained records for over 9.4 million
cases. While ACS is an electronic repository of investigative documents, it does not have the
capability for FBI employees to electronically sign documents. As a result, when ACS was the FBI’s
case management system, FBI agents and officials had to sign printed copies of the documents
contained in ACS. These printed copies of investigative documents are the official records.
       8
            A personal workbox summarizes a user’s cases and leads. A lead is a request from an FBI
field office or a headquarters division for assistance in an investigation. A squad workbox helps
supervisors manage personnel resources.
       9
          The independent assessment was performed by Mitre, a federally funded research and
development center that assists the government with scientific research and analysis; development
and acquisition of large, complex systems; and systems engineering and integration.
       10
            The Agile development approach to software development focuses on the frequent delivery
of capabilities through the close collaboration of users, developers, and testers. The Agile
development approach seeks to deliver value to users quickly even in an environment where the
requirements and technology are frequently changing.
        11
           Sentinel 1.1, 1.2, 1.3, and 1.4 are updated versions of Sentinel that were deployed based
on enhancements or O&M activities. Sentinel 1.1 was released in September 2012 and Sentinel 1.4
was released in September 2013.




                                                  2

work flow.12 A summary of selected Sentinel functional areas is presented in
Table 1 below.

      TABLE 1: SUMMARY OF SELECTED SENTINEL FUNCTIONAL AREAS

Sentinel Functional Area                     Functional Task or Ability

Case Management                              Oversight of the investigative and
                                             administrative activities associated with a
                                             case.
Collected Items Management                   Activities associated with documenting the
                                             collection, storage, and tracking of physical
                                             items related to FBI cases.
Indexing                                     Collection and maintenance of investigative
                                             and administrative information about persons,
                                             organizations, locations, incidents, property,
                                             and communication accounts.13
Records Management                           Functions required to manage the records
                                             entered in to official FBI case files.
Search                                       Ability to locate different types of information
                                             connected within Sentinel.
Work Item Authoring                          Memorialization of the work that has been
                                             accomplished or is in the process of being
                                             accomplished and association of that work
                                             with specific cases.
Work Flow                                    Integrated tools that allow FBI personnel to
                                             create, read, update, and delete documents
                                             and other work items. Also allows users to
                                             author or co-author work items.14
Source: OIG Analysis of the Department’s July 2012 Report to Congress

       As we discussed in our September 2012 report on Sentinel, there were
additions, modifications, or deletions to the requirements for each of the 14 major
functional areas. Requirements for various functional areas were deleted because


       12
          U.S. Department of Justice, Congressional Report on The Federal Bureau of Investigation’s
Next Generation Information and Case Management Program (July 2012).
       13
            Indexing allows Sentinel to add structure to the data it contains, which in turn enables
improved search results. As the FBI noted in a document that describes the index feature to its
employees, a search for white males who drive black cars using a search engine like those used for
internet searches would return all documents that mention any of the following: white males, black
males, white cars, or black cars. By adding structure to the data through indexing, Sentinel’s search
function is able to return only white males who drive a black car. When a user indexes an entity, the
system will suggest potential matches already indexed in Sentinel.
       14
          U.S. Department of Justice, Congressional Report on The Federal Bureau of Investigation’s
Next Generation Information and Case Management Program (July 2012).




                                                  3

the capability described in those requirements was met by other systems. For
example, the Case Management and Work Item Authoring functional areas had a
significant percentage of deleted requirements, 17 percent and 22 percent,
respectively. The Interface functional area had the largest percentage of added
requirements, 86 percent. We also found in our September 2012 report that some
of the requirements had been transferred to other FBI IT systems, including Delta
and iData.15 Six requirements were deleted because Delta subsumed two legacy
human intelligence systems originally planned to be subsumed by Sentinel. As
described below, we found in the current audit that the FBI is continuing to improve
Sentinel and the forthcoming version 1.5 will be the first major functional
enhancement since Sentinel’s initial deployment in July 2012.16

Office of the Inspector General Audit Approach

       The OIG conducted this audit to assess Sentinel’s functionality, its impact on
the FBI’s efficiency, and the FBI’s ability to share information. We also examined
Sentinel program costs incurred and budgeted, and system improvements
completed and planned since Sentinel was deployed. We interviewed Sentinel
users and conducted a survey designed to gather information about system
deployment, system usage, ease of use, the quality of training, and whether
Sentinel users were satisfied with Sentinel and viewed it as an improvement over
ACS. We sent the survey to 2,513 FBI employees and we received 1,150 responses
to the survey.

       To optimize and customize our surveys for the appropriate audiences, we
interviewed Special Agents, Supervisory Special Agents, Operational Support
Technicians (OST), Support Services Technicians (SST), Intelligence Analysts,
Electronic Surveillance (ELSUR) Technicians and Evidence Custodian Technicians
(ECT), and other personnel in field offices and FBI headquarters. Because Sentinel
users with different job titles require different functions of Sentinel, we deployed
four different versions of our survey according to job title: (1) Special Agents;
(2) Supervisory Special Agents; (3) ECTs, ELSUR Technicians, and Operational
Support Technicians; and (4) All Other Positions.17 In addition, to track further
enhancements and developments on Sentinel, we interviewed the Sentinel Project
Manager and Chief Technology Officer, the Chief Information Officer, Sentinel Lead
Developer, the Information Technology Engineering Division Assistant Director, and
additional Special Agents. Finally, we reviewed Executive Steering Committee
minutes and the release notes for each build of Sentinel.
        15
            Delta is the FBI’s confidential human source management system and iData is the
Intelligence Data Association and Tagging application.
        16
           Sentinel 1.5 is a development effort to add functionality to Sentinel that will support the
specific needs of the FBI’s Intelligence Analysts. Development of Sentinel 1.5 began in October 2013
and is scheduled to be deployed in October 2014.
        17
            For the All Other Positions survey, respondents were asked to identity their job titles. The
Intelligence Analyst position represented 28 percent of the participants who completed the All Other
Positions survey.




                                                    4

      As part of our audit follow-up process, we also assessed the FBI’s efforts to
implement corrective actions in response to our prior recommendations and
determined that all of these recommendations have been adequately addressed.
Appendix I contains a more detailed description of our audit objectives, scope, and
methodology.




                                         5

                  FINDINGS AND RECOMMENDATIONS

                       SENTINEL PROGRAM STATUS

      In determining whether Sentinel users were satisfied with Sentinel and
      viewed it as an improvement over ACS, we found that the majority of
      survey respondents reported that overall Sentinel has had a positive
      impact on the FBI’s operations, making the FBI more productive,
      better able to carry out its mission, and share information. However,
      interviews with Sentinel users and responses to detailed survey
      questions revealed Sentinel users’ dissatisfaction with its search and
      indexing features, two major functions of Sentinel. Regarding search,
      we found that only 42 percent of the respondents to our survey who
      used Sentinel’s search functionality often received the results they
      needed. In response to our finding regarding the search function, the
      Sentinel Program Manager told us that the FBI recognized the need to
      improve Sentinel’s search function and provided documentation to
      show that updates were made to improve the search function. The FBI
      also told us that some of the user’s concerns will be addressed with
      the deployment of Sentinel 1.5. Special Agents reported that the
      increase in the administrative burden associated with indexing leaves
      less time for investigative activities. In addition, 67 percent of ECTs
      and ELSUR Technicians survey respondents said that Sentinel had a
      negative impact on their daily productivity. For example, in
      interviews, ECTs expressed concerns regarding the increased amount
      of time it takes to charge evidence in and out of Evidence Control
      Rooms using Sentinel.

      Since the deployment of Sentinel in July 2012, as a result of
      operations and maintenance (O&M) costs and the development of new
      functionality, the total budget for Sentinel increased from $451 million
      to $551.4 million. As of July 2014, the FBI had obligated
      $529.2 million of that amount. Since Sentinel’s deployment in
      July 2012, the FBI has released periodic system updates. In addition,
      in October 2013, the FBI began developing the first new functional
      area since Sentinel was initially deployed. This and other
      enhancements to Sentinel, which are intended to provide new
      functionality for the FBI’s intelligence analysts by integrating other IT
      systems and enhancing system interfaces, are scheduled to be
      deployed with Sentinel 1.5 in October 2014.

User Observations on Sentinel Functionality

      In order to assess Sentinel’s functionality, its impact on the FBI’s efficiency,
and the FBI’s ability to share information, we conducted interviews and surveyed
2,513 Sentinel users. Our survey was designed to determine whether Sentinel
provides FBI agents and analysts with the ability to author and review case


                                           6

documents using an electronic workflow, provide users with the search results they
need to link cases with similar information, and effectively and efficiently manage
evidence. The survey addressed major components of Sentinel’s functionality
including its user friendliness, case management, evidence management,
information sharing, and automated review and approval process.18

       Our user survey indicated that, overall, Sentinel has increased the daily
productivity of FBI employees, enhanced the FBI’s ability to carry out its mission,
and increased their ability to share information with colleagues not located in their
office. We also reviewed narrative survey responses and found that survey
respondents provided positive feedback on Sentinel’s ability to upload, send, view,
and store documentation. In addition, survey respondents noted that Sentinel has
made it easier to collaborate on routine documents and track the status of work
products and communications. Some survey respondents also stated that Sentinel
is an improvement over ACS.

       Through responses to specific survey questions and the additional narrative
responses, users also expressed dissatisfaction with the indexing and search
functions in Sentinel. One small subset of respondents – ECTs and ELSUR
Technicians – responded negatively about a range of topics including Sentinel’s
impact on their productivity and the Sentinel training they received.19 Survey
respondents’ narrative responses expressed concerns with the transfer of
administrative responsibilities from OSTs to Special Agents and integrating Sentinel
with other systems. These results are described in more detail below.

Broad Measures of Sentinel’s Impact

       The user survey respondents were asked several questions related to their
overall experience using the Sentinel system. These questions addressed:

        	 Survey respondents’ overall satisfaction with the FBI’s handling of the
           transition from ACS to Sentinel,

        	 Sentinel’s impact on respondents’ daily productivity,

        	 Sentinel’s impact on sharing information outside of their office, and

        	 Sentinel’s impact on the FBI’s ability to carry out its mission.

      The majority of survey respondents, 63 percent, were satisfied with the FBI’s
handling of the transition from ACS to Sentinel. Likewise, 58 percent of


        18
             Detailed results of our survey are contained in Appendix II.
        19
           ECTs are responsible for the receipt, retention and disposition of evidence for the field
office. ELSUR Technicians maintain ELSUR physical evidence and ensures chain of custody is
preserved.




                                                     7

respondents reported that Sentinel has increased their daily productivity. In
addition, 69 percent of respondents reported that Sentinel increased their ability to
share information with personnel in other offices, and 72 percent of survey
respondents indicated that Sentinel has enhanced the FBI’s ability to carry out its
mission.

       ECTs and ELSUR Technicians represented only 3 percent of the total number
of survey respondents but, due to the nature of their positions, they rely heavily on
Sentinel to complete their work — 71 percent of ECTs and ELSUR Technicians
reported spending more than 30 hours per week working in Sentinel. As shown in
the following exhibit, ECTs and ELSUR Technicians survey respondents viewed
Sentinel’s impact on their productivity much more negatively than survey
respondents in other job positions.

        EXHIBIT 1: SENTINEL EFFECT ON PRODUCTIVITY BY JOB TITLE20

 100%
  90%
  80%
                         67%                                                                          67%
  70%                                           63%                                 63%
  60%
                                                                  48%
  50%                          42%
  40%                                                                   34%
                                     28% 30%          30%
  30%        23%                                                                                22%
                                                                              19%                           20%
  20%                                                                                     15%                     14%
                   10%                                      8%
  10%
   0%
             ECT & ELSUR       OST & SST        Intelligence       All Other        Special Agent      Supervisory
              Technician                          Analyst          Positions                          Special Agent

                                        Increased     No Difference       Decreased

Source: OIG Analysis of Sentinel User Survey Data

       During our fieldwork interviews, ECTs expressed concerns with how Sentinel
affected their daily work, such as charging evidence in and out of Evidence Control
Rooms and other approved storage locations, inventory of evidence, recordkeeping
of evidence, and concerns with the time recorded for transfer of evidence in the
chain of custody. ECTs also told us that they had to maintain two chains of custody
for each piece of evidence, a paper chain of custody and a chain of custody in
Sentinel. Pursuant to FBI policy, the paper chain of custody is the official record;
however, ECTs are also responsible for ensuring that the same information is
recorded accurately in Sentinel. They said they found this process duplicative and

        20
          Due to rounding, the sum of the percentages in some of this report’s exhibits does not
equal 100 percent.




                                                             8

inefficient, and they told us it can be difficult to ensure both records contain the
same information. The FBI told us that the electronic chain of custody in Sentinel is
used as a backup in the event the paper chain of custody is lost or destroyed. If
this situation were to occur, the FBI would be able to recreate an accurate chain of
custody based upon the information retained in Sentinel.

Sentinel Impact on Operational Efficiency

       As an electronic case management system, Sentinel was designed to improve
the effectiveness and efficiency of the FBI’s day-to-day operations. We asked
Sentinel users whether they believed the current processes in place since Sentinel’s
implementation had improved operational efficiency compared to ACS and the FBI’s
previous paper-based processes. We analyzed user responses and found that the
majority of survey respondents believe that the Sentinel processes are an
improvement over the previous processes.21 For example, among users who
responded to the following survey questions:

        	 57 percent reported a reduction in misplaced documentation. Because
           paper documents were the official record under ACS, documents were
           physically circulated for approval and filing, and some of these documents
           were misplaced; with Sentinel, many documents are now handled
           electronically instead. According to the FBI, due to legal and financial
           audit requirements the official record for some documents continues to be
           on paper. For example, the official copy of a search warrant is a paper
           document. Because the FBI could not eliminate all paper forms and
           documents, opportunities to misplace documents still exist.

        	 69 percent reported that Sentinel has increased their ability to share
           information with colleagues located outside of their office.22 In ACS, only
           the author and supervisor were able to review a paper document before it
           was approved and signed, which often took days, delaying the sharing of
           information.

        	 53 percent of Special Agents reported they spent less time drafting an
           FD-302, which the FBI uses to record investigative activity, such as the
           results of an interview.

        	 60 percent of Special Agents reported they spent less time drafting
           electronic communications (ECs).


        21
            As discussed previously in the OIG Audit Approach section of this report, Sentinel users
with different job titles require different functions of Sentinel. As a result, we deployed four different
versions of our survey according to job title: (1) Special Agents; (2) Supervisory Special Agents;
(3) ECTs, ELSUR Technicians, and Operational Support Technicians; and (4) All Other Positions.
        22
           This question was only presented to those users whose job positions require them to share
information outside of their office.




                                                     9

       	 59 percent reported a reduction in the time they spend approving forms.23

       	 63 percent reported a reduction in the time they spend approving ECs.24

       	 69 percent reported a reduction in the time it takes to get documents
          approved.25 As described above, the process for approving documents in
          ACS relied on paper records. According to survey respondents, Sentinel’s
          electronic workflow appears to have reduced the amount of time it takes
          to get documents approved.

      In addition, as illustrated in Exhibit 2 below, over 70 percent of survey
respondents reported that they found it easy to learn how to complete common
Sentinel tasks such as drafting a form, approving a form, drafting an EC, or
approving an EC.




        23
            Only users in the Supervisory Special Agents and All Other Positions categories were asked
this question because users in other job positions generally did not approve forms.
       24
            Only users in the Supervisory Special Agents and All Other Positions categories were asked
this question because users in other job positions generally did not approve ECs.
       25
           Users in Special Agents, Operational Support Technicians, and All Other Positions
categories were asked about the reduction in time to get documents approved.




                                                 10

EXHIBIT 2: EASE OF LEARNING TO DRAFT AND APPROVE FD-302, EC, AND 

                          OTHER FORMS



      Drafting a Form                              72%                                20%              8%

    Approving a Form                                75%                                19%             6%

       Drafting an EC                               77%                                16%             7%

     Approving an EC                                77%                                    17%         6%

   Drafting an FD‐302                                    84%                                     14%    2%

 Approving an FD‐302                                     82%                                 14%        3%

                        0%   10%    20%      30%      40%      50%     60%     70%   80%     90%        100%

                                Easy      Neither Easy Nor Difficult   Difficult

Source: OIG Analysis of Sentinel User Survey Data

Search and Indexing Functions

        Users reported challenges learning how to use the search and indexing
functions and in obtaining the results that they needed from the search function.
Sentinel’s search function provides users with the capability to locate cases and
specific case-related information within Sentinel. For example, a Special Agent can
search for bank robberies in a particular city or pictures related to a specific
investigation. In broad terms, indexing is the collection and maintenance of
investigative and administrative information about persons, organizations,
locations, incidents, property, and communication accounts. Indexing allows
Sentinel to add structure to the data it contains, which in turn enables improved
search results.26 As the FBI noted in a document that describes the index feature
to its employees, a search for white males who drive black cars using a search
engine like those used for Internet searches would return all documents that
mention any of the following: white males, black males, white cars, or black cars.
By adding structure to the data through indexing, Sentinel’s search function is able
to return only white males who drive a black car.

       Search

       The search function provides users with the capability to locate different
types of information contained within Sentinel. According to the FBI, the search
function is both flexible and powerful enough to accommodate the substantial
volume and wide variety of information available for retrieval in Sentinel. In our

       26
            The search function includes the ability to search both structured and unstructured data.




                                                     11

current audit, we found that 59 percent of survey respondents who used Sentinel’s
search functionality reported that they sometimes, rarely, or never received the
results they needed. In the comment section of our survey, 20 respondents also
specifically stated that the search function in ACS was superior to the search
function in Sentinel. In addition, we found that survey respondents’ satisfaction
with search results varied according to the location of the respondent, and FBI
headquarters was the only location where the majority of respondents reported that
they often received the search results they needed. As shown in the following
exhibit, a majority of survey respondents from FBI field offices, Legal Attachés
(Legat), and Resident Agencies reported that search only sometimes, rarely, or
never provided the results they needed.

  EXHIBIT 3: FREQUENCY WITH WHICH SEARCH PROVIDED USERS WITH 

                   NEEDED RESULTS BY LOCATION


 100%
  90%
  80%
  70%
  60%                       54%
  50%     43%                                                                              42%
                37%                                 36% 37%              38%
  40%                                                                          34%               34%
                                  26%                           27%                  28%
  30%                                                                                                  25%
                      21%                 20%
  20%
  10%
   0%
            Field Office    Headquarters               Legats          Resident Agencies    All locations
                                  Often         Sometimes       Rarely or Never

Source: OIG Analysis of Sentinel User Survey Data

       Similar to many commercial websites, Sentinel includes an advanced search
feature that is intended to allow users to narrow the results of searches to meet
their specific needs. Overall, we found that 23 percent of participants who used the
advanced search functionality reported that they rarely or never received the
results they needed. As with the regular search function, a smaller percentage of
respondents from FBI field offices, Legats, and Resident Agencies reported they
often received the results they needed from advanced search than their colleagues
at FBI headquarters.

       We also found that respondents did not have high levels of satisfaction with
specific aspects of the search function. For example, we found 39 percent of survey
respondents reported they were dissatisfied with the organization of information
they received when using the search functionality. The level of dissatisfaction
varied from 34 percent at FBI headquarters to 46 percent at Legats.



                                                     12

       Survey respondents also generally reported difficulty in learning how to use
the search function. We found that a higher percentage of users stationed at
Legats or Resident Agencies reported difficulty learning to search than their
colleagues stationed at FBI headquarters or field offices. Specifically, 48 percent of
respondents at Legats and 38 percent of respondents at Resident Agencies reported
having difficulty learning how to use Sentinel’s search function.27

        When we compared the number of years survey respondents were employed
at the FBI with how easy or difficult they found it to learn how to search in Sentinel,
we found that generally the more years of service a respondent had, the more
difficult they found it to learn the search function. Exhibit 4 summarizes our
analysis.

             EXHIBIT 4: EASE IN LEARNING THE SEARCH FEATURE BY FBI
                                  TENURE



 More than 20 years               34%                      26%                         40%



        16‐20 Years               37%                      23%                         40%



        11‐15 Years                39%                     18%                         43%



         6‐10 Years                 43%                          21%                     35%



     5 Years or Less                      55%                                  21%             24%


                       0%   10%    20%     30%     40%      50%          60%     70%   80%      90%   100%

                                          Easy   Neutral     Difficult

Source: OIG Analysis of Sentinel User Survey Data

       Finally, we compared the number of hours that respondents reported using
Sentinel each week to how easy it was for them to learn to use Sentinel’s search
function. We found that the number of hours that Sentinel was used per week did
not appear to have an impact on whether a user found it easy to learn Sentinel’s
search function.


       27
           The following groups were asked how easy or difficult they found it to learn the search
function: Special Agents, Operational Support Technicians, and All Other Positions categories.




                                                   13

       During our audit, we learned that the FBI had become aware of potential
limitations to its search function as early as September 2012, when a report
assessing the overall case management function highlighted known limitations of
the system’s search functionality. That report stated that “the user is now
presented with additional search results frequently resulting in information
overload. The search engine will sometimes return more results than was desired.
Additional tuning or filters are required to balance the false positives and false
negatives. ACS had additional algorithms specifically searching for names
permutations that Sentinel does not currently support.”

       Our interviews with Sentinel users and survey results reflected these same
concerns. Based on a review of those interviews and results, we found that
Sentinel often does not provide users with the search results they need. Sentinel
users frequently cited two issues: Sentinel returned too many search results for a
person to reasonably review or no results at all for a document the user knew
existed. Based on the feedback received from Sentinel users, we are concerned
that Sentinel does not appear to have met users’ expectations and needs. If users
are not provided with a versatile capability to locate different types of information
contained within Sentinel, as envisioned in the FBI’s stated requirements for
Sentinel, there is the potential that an investigation can be hindered because
agents or analysts may not be aware of, or may be unable to locate, information
that is in Sentinel and relevant to the investigation.

       In response to our finding regarding the search function, the Sentinel
Program Manager told us that the FBI recognized the need to improve Sentinel’s
search function and is taking steps to address users’ concerns. These efforts
include additional training, new algorithms, and other technological improvements
to reduce the frequency of false positives and negatives among search results.
Additionally, the FBI told us that it intends to improve other search-related features
with the deployment of Sentinel 1.5 in October 2014. We have not assessed the
impact of these updates on the user experience. In addition to the steps the FBI
has already taken to improve the search function, we believe that the FBI should
continue to solicit additional and ongoing feedback from Sentinel user groups and
use that feedback to enhance the search function.

      Indexing

       The purpose of the indexing function is to designate, modify, and delete the
relationship between any two identifiers, such as the relationship between a person
and that person’s address. Applying identifiers is intended to allow more precise
and comprehensive searching within Sentinel and increase the FBI’s ability to
“connect the dots.” Indexing allows Sentinel users to determine, for example,
whether an individual has been the subject of or involved in other investigations. If
users do not properly index names and places that arise in FBI investigations, the
FBI could provide erroneous and incomplete information to other federal agencies,
which could potentially hinder the FBI’s and other agencies’ ability to efficiently and
effectively identify persons of interest who may do harm to the nation.




                                          14

      We found that the primary user concern with Sentinel’s indexing function is
the amount of administrative burden placed on the author of a document, the
person responsible for indexing the document. In our survey, 41 percent of survey
respondents reported that they spent more time indexing in Sentinel than they did
in ACS.

        When the FBI deployed Sentinel, several work processes changed. Under the
ACS process, Special Agents marked paper documents with the information they
wanted to be indexed and OSTs indexed the documents in ACS. In Sentinel,
Special Agents index their own documents rather than assigning it to an
administrative staff member. In interviews, Special Agents told us that the
increased administrative burden posed by indexing leaves less time for investigative
activities. Similarly, as shown in the following exhibit, we found that a greater
percentage of respondents outside of FBI headquarters reported that they spent
more time on indexing in Sentinel compared to the time they spent indexing in
ACS.28 However, as shown in Exhibit 5, even among the FBI field offices, Legats,
and Resident Agencies there was a substantial amount of variation between the
percentage of personnel who spent more time on indexing in Sentinel than they did
in ACS, with 34 percent of the Legat respondents and 48 percent of the Resident
Agency respondents reporting an increase in the amount of time spent on indexing.

             EXHIBIT 5: TIME SPENT INDEXING COMPARED TO ACS

 100%
  90%
  80%
  70%
                                  60%
  60%
                                                                                             48%
  50%      41%           38%                                40%
  40%                                                                      34%   36%
                                                  26%             26%
  30%             21%
  20%                                      14%                                         16%

  10%
   0%
              Field Offices         Headquarters                  Legats         Resident Agencies

                               Less Time         The Same Time    More Time

Source: OIG Analysis of Sentinel User Survey Data




        28
           Forty-six percent of the survey respondents stationed at FBI headquarters responded “Not
Applicable,” a significantly higher percentage than those stationed at other types of offices, to the
question regarding the amount of time spent indexing in Sentinel compared to ACS.




                                                      15

       FBI officials told us that the FBI is not currently able to provide Special
Agents in the field with assistance in reducing the time it takes to index large
structured documents such as bank records, or unstructured documents such as a
report of investigation form (FD-302) or email. We believe that the FBI should
continue to research technological solutions and review its business processes and
policies to identify ways to reduce the time it takes users to index large documents.
Because the rate at which documents are being added to Sentinel is substantially
greater than the rate the documents were added to ACS and is likely to grow in the
future, there is an increasing need for the FBI to address this issue.

Missing Features

      To determine whether Sentinel met users’ operational needs, we asked
survey respondents whether they believed that Sentinel was missing any essential
features critical to their duties. Thirty-six percent believed that Sentinel was
missing essential features critical to their duties. The two most frequently cited
missing features related to Sentinel’s integration with other FBI IT systems and
survey respondents’ desire to see enhancements made to Sentinel’s search
capability. The responses were similar across most of the job positions with the
exception of the ECTs and ELSUR Technicians, 77 percent of whom responded that
Sentinel was missing features critical to their duties.29 While responses from ECTs
and ELSUR technicians were only 3 percent of the total responses we received,
these technicians use Sentinel to complete a large portion of their duties. Fifty-
two percent of ECTs and ELSUR technicians who completed our survey reported
using Sentinel more than 30 hours a week.




       29
            In discussing this issue with FBI management, we were told that users may have been
indicating their personal preferences. FBI management stated that it was likely that none of the
business processes or information contained within reports was eliminated, but that individuals were
likely indicating that they preferred how information was reported in the past.




                                                 16

     EXHIBIT 6: RESPONSES TO MISSING FEATURES BY JOB POSITION 



 Supervisory Special Agent                 44%                                     35%                21%

             Special Agent                38%                                 41%                     21%

       Intelligence Analyst              37%                                 38%                     26%

                OST & SST                34%                          31%                       35%

  ECT & ELSUR Technician                                    77%                                      19%    3%

        All Other Positions        22%                       36%                               42%

                     Total               36%                                37%                      26%

                              0%   10%    20%        30%     40%       50%     60%       70%   80%    90%   100%

                                               Yes    No         Don't Know

Source: OIG Analysis of Sentinel User Survey Data

      We also compared the number of hours survey respondents reported using
Sentinel each week to their responses about whether they believed that Sentinel
was missing any features essential to their duties. We found that 49 percent of
survey respondents who used Sentinel for more than 30 hours per week believed
that Sentinel was missing essential features and 33 percent of survey respondents
who used Sentinel for 20 hours or less per week thought Sentinel was missing key
features. Almost half of the respondents who use Sentinel the most reported that
Sentinel is missing features essential to their duties. We believe that the FBI
should consider revising how it prioritizes adding new features to Sentinel to
account for the needs of those employees who use Sentinel the most.

       Finally, we considered whether job-specific training had an effect on
respondents’ perceptions about whether Sentinel was missing essential features.
Since a lack of training could affect a user’s knowledge about Sentinel’s capabilities
and features, we compared survey respondents’ views about whether Sentinel was
missing features critical to their duties with whether or not they received job-
specific Sentinel training. We found that training had a relatively low impact on
survey respondents’ responses about regarding missing features in Sentinel.

Training and Resources

      As part of the transition plan, the FBI offered both training and other types of
resources and guides to assist Sentinel users. We found that the majority of survey
respondents were generally satisfied with the training and other Sentinel-related
resources provided to them.




                                                           17

       Prior to Sentinel’s deployment in July 2012, the FBI identified and provided
job-specific training to employees most affected by the transition to Sentinel.30
Overall, the majority of survey respondents reported they had received Sentinel
training that was specific to their job responsibilities prior to the deployment of
Sentinel. However, only 38 percent of the Intelligence Analysts, the lowest
percentage of any of the positions we surveyed, reported having received job-
specific training. Of those who received the training, 58 percent were satisfied or
very satisfied with the usefulness of the training and 26 percent were neutral.
Some survey respondents stated in their narrative responses to our survey that
more Sentinel training is needed.

       In addition to job-specific training, the FBI developed and established several
types of training resources and guides to assist Sentinel users, including local
Sentinel coordinators, Sentinel Quick Guides, and Sentinel frequently asked
questions (FAQ) lists.31 The majority of survey respondents were aware that these
resources and guides were available to them. More than 50 percent of respondents
who reported using these resources found them to be very helpful or helpful. In
addition, at least 22 percent of respondents found these resources to be somewhat
helpful. The highest rated of these resources was the Sentinel coordinator, with
69 percent of survey respondents reporting that they were very helpful or helpful.

       We asked survey respondents to indicate how satisfied or dissatisfied they
were with the availability of technical support, policy-related support, and basic
user support. Technical support relates to defects or bugs in the system, policy-
related support provides guidance on the use of Sentinel in accordance with FBI
policy, and basic user support provides guidance on how to perform basic tasks in
Sentinel. Our survey results indicated that overall, 53 percent of survey
respondents reported that they are satisfied with the availability of basic user
support assistance. However, only 33 percent of Special Agents and 27 percent of
Supervisory Special Agents who responded to the survey reported being satisfied
with the availability of policy-related support. In addition, only 38 percent of
Special Agents and 30 percent of Supervisory Special Agents were satisfied with the
availability of Sentinel system defect-related technical support.




       30
           The Sentinel training program was designed for FBI personnel who use or support Sentinel.
According to the FBI, training goals were designed to provide an overall understanding of the scope
and purpose of Sentinel, create a positive image of the Sentinel program and its benefits, and provide
users with opportunities to gain hands-on experience with the functions in Sentinel that they will use
to perform their jobs.
         31
            Sentinel coordinators are FBI employees located in field offices who were trained by the
Sentinel team. They are the local resources for Sentinel users who require assistance using the
system. Quick guides are short instructional guides that are posted on the FBI Intranet. Sample
topics include: getting started, online help, how to create a document, how to use new and revised
forms, and the workflow process. The Sentinel FAQ list includes functionality enhancements and
techniques for improving the user experience or improving efficiency in working with Sentinel.




                                                  18

Impact of Change on Business Processes

       In 2009, the FBI initiated a Field Administrative Workload Study on Special
Agents to identify: (1) the amount of time dedicated to administrative tasks,
(2) the amount of time spent on problematic (i.e., inefficient or ineffective) tasks,
and (3) the types of tasks that require the majority of their time to determine the
prevailing tasks and issues that hinder Special Agents’ ability to focus on non-
administrative investigative and intelligence case work.32 The FBI found that
Special Agents were spending 36 percent of their time on administrative tasks,
which were defined as tasks that non-Special Agent employees could accomplish.
Partly in response to the findings of that study, the FBI created the operational
support technician (OST) position to provide administrative and technical support to
both investigative and administrative squads in an FBI field office.

       Based upon our fieldwork and survey results, we determined that prior to the
deployment of Sentinel, many OSTs spent a significant amount of their time on
tasks related to the indexing process. Since the deployment of Sentinel, Special
Agents have indexed their own cases. This reduction in the scope of work typically
performed by OSTs creates an opportunity for the OSTs to perform additional
administrative tasks, which both ensures that OSTs are fully utilized and reduces
the administrative burden on Special Agents in the field. However, during our
interviews, the OSTs stated that they were not always used efficiently or assigned
new tasks to replace the time they previously spent indexing. Special Agents’ and
OSTs’ responses to some of the open-ended survey questions similarly expressed
the concern that OSTs are underutilized because their work was transferred to
Special Agents. We also noted during our analysis of the open-ended survey
questions that for those who stated that their daily productivity decreased,
55 percent of Special Agents attributed the decrease to administrative burden.
Based upon these findings, we are concerned that OSTs may not be utilized fully
and consistently throughout all FBI field offices.

        In response to our concerns about OSTs, the FBI provided us with
documentation of the training that was previously given to Administrative Officers
and Assistant Special Agents-in-Charge that describes the tasks that OSTs can
perform in Sentinel, which include re-indexing information, processing leads and
evidence returns, assisting Special Agents with managing cases, and assisting with
other administrative tasks. The January 2013 training documentation also stated
that it is possible that not every squad will need an OST and that offices should
assess their workloads and reallocate positions accordingly. According to the FBI,
many offices have conducted such assessments to determine the workload and
training needs of OSTs. We have not assessed the impact of this training on the
utilization of OSTs and therefore we cannot comment on the outcome of the FBI’s
efforts. In addition to the steps the FBI has already taken to improve the utilization
of OSTs, we recommend that the FBI evaluate the progress that FBI field offices
       32
          The study included GS-10 through GS-13 Special Agents assigned to field offices and
Resident Agencies.




                                                19

have made in ensuring that OSTs are fully and effectively performing administrative
tasks within Sentinel to optimally reduce the administrative responsibilities of
Special Agents.

Security

        The Sentinel system requirements stipulate that Sentinel will provide the
capability to control access based upon user roles, in addition to allowing FBI
leadership at FBI headquarters and in the field to define user roles and
responsibilities to fit their records management operating procedures. To
determine whether Sentinel users believed that the system access controls were
sufficient, we asked them to confirm whether they believed that they were able to
exceed their authority in Sentinel. We analyzed user survey responses and found
that 83 percent of survey respondents did not believe that Sentinel allowed them to
exceed their authority. Another 13 percent responded that they did not know
whether Sentinel allowed them to exceed their authority and 4 percent believed
Sentinel did.33

       In 2013, the OIG contracted with KPMG LLP to perform a separate audit of
Sentinel in accordance with the Federal Information Security Management Act of
FY 2002.34 KPMG LLP evaluated controls from 6 of the 18 control areas identified in
the National Institute of Standards and Technology Special Publication 800-53
Revision 3, August 2009, Recommended Security Controls for Federal Information
Security Systems and Organizations.35

      KPMG LLP’s June 014 report identified deficiencies in 2 of the 6 control areas
tested. These 2 control areas pertained to Risk Assessment and to Audit and
Accountability. KPMG LLP concluded that these deficiencies exist because the FBI
did not consistently develop and enforce information technology security policies for
the system in accordance with current FBI and National Institute of Standards and
Technology policies and procedures. KPMG LLP provided two recommendations for


        33
             In response to these findings, FBI officials told us that it is aware of one instance where
access control was a concern and in that instance the cause was a user error issue and not a Sentinel
issue. FBI officials further told us that there are some users who believe that only the case agent
should have access to the information contained in a case file even though Sentinel was designed to
facilitate information sharing. They believe this view could have led some survey respondents to
believe that Sentinel has allowed them to exceed their authority.
        34
            U.S. Department of Justice Office of the Inspector General, Audit of the Federal Bureau of
Investigation’s Sentinel Pursuant to the Federal Information Security Management Act, Fiscal
Year 2013, Audit Report 14-25 (June 2014). This report is classified; however, the text herein is
unclassified.
        35
            The selected controls included common security controls and other controls critical to a
system that is likely to change over time, such as technical controls that are subject to the direct
effects of frequent changes in hardware software components. KPMG LLP selected specific test
procedures that were applicable to the computing environment; therefore, not all control areas were
evaluated.




                                                   20

improving the security posture of the Sentinel control environment and FBI
management concurred with the recommendations.

Sentinel Budget

      As of July 2014, the FBI reported it had obligated $432 million of the
$451 million available for Sentinel at the time Sentinel 1.0 was deployed. The total
budget for Sentinel since the deployment of Sentinel 1.0 in July 2012 has increased
from $451 million to $551.4 million. This increase is the result of operations and
maintenance during FY 2013 and 2014 and the development of new functionality
during FY 2014. As of July 2014, the FBI had obligated $529.2 million of that
$551.4 million and expensed $502.1 million.36

                EXHIBIT 7: SENTINEL DEVELOPMENT AND O&M BUDGET


       Sentinel Development and O&M Budget (March 2006 – September 2014)
                                                                               Amount      Remaining
                                         Total Budget        Amount         Expensed (As   Funds thru
    Sentinel      Development    O&M     Development     Obligated (As of     of JUL 23,    SEP 14,
    Release         Budget      Budget     and O&M        JUL 23, 2014)         2014)        2014
 Sentinel 1.0
 (MAR 2006 –
 JUL 2012)           $451M        -          $451M          ($431.7M)        ($431.7M)          -
 Sentinel 1.1
 to 1.4
 (JUL 2012 –
 SEP 2013)             -        $58.5M      $58.5M           ($60M)37         ($54.3M)          -
 Sentinel 1.5
 (OCT 2013 –
 SEP 2014)          $12.3M      $29.6M      $41.9M           ($37.5M)          ($16.1)          -


 Total Budget       $463.3M     $88.1M      $551.4M         ($529.2M)         ($502.1)        $4.5M
Source: FBI Finance Division

Sentinel Enhancements

      The FBI has updated the Sentinel application several times since it was
deployed in July 2012. These updates include “bug” fixes, user interface updates,




        36
            As of March 2014, the FBI reported it had obligated $432 million of the $451 million
available for Sentinel in FY 2012 at the time Sentinel 1.0 was deployed. However, as discussed in our
December 2011 and September 2012 reports, these obligated and budgeted amounts did not include
costs for 2 years of operations and maintenance after Sentinel was completed, costs that were part of
the $451 million cost estimate that the FBI projected for Sentinel in 2008.
        37
           The FBI used carryover authority to transfer FY 2011 available balances to No Year funding
for 2012 Sentinel requirements. As a result, during FY 2012 the FBI had the ability to obligate more
than the amount appropriated to Sentinel.




                                                 21

performance improvements, user experience improvements, and additional changes
in response to user feedback.38

     Sentinel 1.1, 1.2, and 1.3 releases were deployed to users in
September 2012, December 2012 and February 2013, respectively, and included:

        	 improved indexing, resolving an issue where documents from external
           systems (i.e., Delta) would have to be re-indexed in Sentinel and adding
           indexing templates (name, aliases date of birth, citizenship, languages) to
           improve the sufficiency of indexing;

        	 improved response time when retrieving documents from large cases;

        	 created default access control restrictions for some case classifications;

        	 refined the capability to search for images;

        	 refined the workflow for entering evidence into Sentinel;

        	 added the capability to create the physical surveillance request (FD-1054)
           and physical surveillance log (FD-1055) forms within Sentinel using
           Sentinel’s workflow;

        	 added the capability to limit a search to a specific case and subfiles
           contained in the case; and

        	 improved search accuracy, including a revised set of stop words.39

      Sentinel 1.4 was deployed in September 2013. It included fixes related to
evidence functionality, forms, search functionality, indexing and entity
management, and serialization and accomplishment functionality.

        The FBI provided the OIG with documentation outlining its development
plans for Sentinel 1.5, which is being developed to support the needs of the FBI’s
Intelligence Analysts and is scheduled to be deployed in October 2014. Because
Sentinel 1.5 is directed toward the needs of Intelligence Analysts, the Sentinel
development team is working together with subject matter experts from the
Directorate of Intelligence (DI) to design and deploy a functionality that will meet
the needs of the analysts. Sentinel 1.5 will consolidate the Collection Operation

        38
           FBI Enterprise Requirements and Capabilities Working Group reviews and prioritizes
requests, obtains the technical level of effort from the Sentinel team, validates the release schedule,
and submits the release schedule to the Executive Steering Council for review. This process is
intended to focus the Sentinel team’s efforts on business priorities and scheduling work that is within
resource capacity.
        39
          Stop words are words ignored by a search engine when matching queries to results. They
comprise the most commonly occurring words in a language, such as a, an, or and.




                                                  22

and Requirements Environment (CORE) and the FBI Intelligence Information Report
Dissemination System (FIDS) into Sentinel, enhance Sentinel interface with Delta,
and enable a Sentinel-iData interface. The FBI is employing an Agile development
methodology for designing and implementing this enhanced functionality. The FBI
has said it will identify enhancements to existing system functionality, including
work item authoring, search, and workflow to continue to support the FBI’s
intelligence mission. According to the FBI, the consolidation of these legacy
systems will simplify the user experience, retire legacy investments resulting in cost
avoidance, reduce time to awareness, and increase data availability.

        The FBI plans to deploy Sentinel 1.5’s new capabilities using the same model
that was used to transition from ACS to Sentinel 1.0. The plan includes training FBI
personnel at FBI headquarters and in the field, developing user guides and a FAQ
list, and developing an FBI headquarters based team responsible for assessing and
responding to user questions or concerns. However, the transition effort will be
scaled down in comparison to the transition from ACS because Sentinel 1.5 will
primarily affect Intelligence Analysts.

Conclusion

       Two years have passed since the FBI deployed Sentinel to users in July 2012.
Since the deployment, the FBI has worked to improve both the functionality and
user’s experience with Sentinel. During our audit, we found that the majority of
users who participated in our survey viewed their experience with Sentinel
positively, responding that Sentinel has increased their daily productivity, increased
their ability to share information with personnel in other offices, and enhanced the
FBI’s ability to carry out its mission. Some survey respondents also stated that
Sentinel is an improvement over ACS. However, ECTs and ELSUR Technicians
expressed concerns about the impact Sentinel had on their daily work activities that
play a vital role in the storage and management of evidence collected by the FBI.
In addition, we found that survey respondents’ satisfaction with Sentinel’s search
and indexing functionality was significantly lower than other functions because they
did not reliably receive the search results they needed and reported spending too
much of their time manually indexing information. FBI officials are aware of these
concerns and told us that they plan to address them.

        The deployment of Sentinel represented significant changes in both the
technology and business processes used by FBI employees to accomplish tasks. Of
those Special Agents who responded that Sentinel had decreased their daily
productivity, a majority attributed the productivity decrease to an increase in
administrative burden. During our audit, Special Agents told us that the increase in
the administrative burden posed by indexing leaves less time for investigative
activities. Prior to the deployment of Sentinel, OSTs played a significant role in the
indexing process. Since the deployment of Sentinel, that role has been eliminated,
creating an opportunity for OSTs to potentially ease the increased administrative
burden on Special Agents in the field. However, we found that OSTs were not
always used efficiently or assigned new tasks to supplant their previous indexing




                                         23

duties. As a result, we believe that some user concerns, especially those relating to
indexing, may require both a technical and business process solution.

        Survey respondents’ also reported that Sentinel was missing features that
they believed are critical to their duties, such as Sentinel’s integration with other
FBI IT systems and enhancements to the search capability. Enhanced search
capabilities should improve user satisfaction with Sentinel and increase the FBI’s
ability to “connect the dots.” To ensure that future enhancements are more aligned
with user’s operational needs, the FBI should consider revising how it prioritizes the
addition of new enhancements to the system. In addition, although respondents
were generally satisfied with the job-specific training and other resources the FBI
offered, Special Agents and Supervisory Special Agents reported a significantly
lower level of satisfaction with the availability of technical and policy-related
support after the deployment of Sentinel.

       The total budget for Sentinel since the deployment of Sentinel 1.0 in
July 2012 has increased from $451 million to $551.4 million. This increase is the
result of operations and maintenance during FY 2013 and 2014 and the
development of new functionality during FY 2014. As of July 2014, the FBI had
obligated $529.2 million of that $551.4 million and expensed $502.1 million. The
FBI’s deployment of Sentinel 1.5, planned for October 2014, is intended to support
the needs of the FBI’s intelligence analysts by integrating legacy intelligence
systems and expanding Sentinel’s functionality by leveraging its features to support
the FBI’s intelligence mission. If Sentinel 1.5 successfully subsumes other legacy
systems or improves the integration of Sentinel with other legacy systems, the FBI
should realize cost savings from retiring systems and reducing the amount of
maintenance to operate other legacy systems.

Recommendations

We recommend that the FBI:

      1. Evaluate the progress that FBI field offices have made in ensuring that
         OSTs are fully and effectively performing administrative tasks within
         Sentinel to optimally reduce the administrative responsibilities of Special
         Agents.

      2. Solicit user feedback on Sentinel to ensure improvements made to the
         search function adequately reflect user needs.

      3. Continue to research technological solutions and review business
         processes and policies to identify ways to reduce the time it takes users
         to index large unstructured documents.




                                         24

                  STATEMENT ON INTERNAL CONTROLS
       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit objectives.
A deficiency in an internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their
assigned functions, to timely prevent or detect: (1) impairments to the
effectiveness and efficiency of operations, (2) misstatements in financial or
performance information, or (3) violations of laws and regulations. Our evaluation
of the Federal Bureau of Investigation’s internal controls was not made for the
purpose of providing assurance on its internal control structure as a whole. FBI
management is responsible for the establishment and maintenance of internal
controls.

       Through our audit testing, we did not identify any deficiencies in the FBI’s
internal controls that are significant within the context of the audit objectives and
based upon the audit work performed that we believe would affect the FBI’s ability
to effectively and efficiently operate, to correctly state financial and performance
information, and to ensure compliance with laws and regulations.

       Because we are not expressing an opinion on the FBI’s internal control
structure as a whole, this statement is intended solely for the information and use
of the FBI. This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                          25

                      STATEMENT ON COMPLIANCE 

                     WITH LAWS AND REGULATIONS 

       As required by the Government Auditing Standards we tested, as appropriate
given our audit scope and objectives, selected transactions, records, procedures,
and practices, to obtain reasonable assurance that the Federal Bureau of
Investigation’s (FBI) management complied with federal laws and regulations, for
which noncompliance, in our judgment, could have a material effect on the results
of our audit. FBI’s management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified the
following laws and regulations that concerned the operations of the auditee and
that were significant within the context of the audit objectives:

        FBI Domestic Investigations and Operations Guide dated October 15,
         2011; and
        Executive Order 13388: Further Strengthening the Sharing of Terrorism
         Information to Protect Americans, dated October 25, 2005.

       Our audit included examining, on a test basis, the FBI’s compliance with the
aforementioned laws and regulations that could have a material effect on the FBI’s
operations, through interviewing FBI personnel, analyzing survey data and
reviewing program contract and budget documentation. Nothing came to our
attention that caused us to believe that the FBI was not in compliance with the
aforementioned laws and regulations.




                                         26

                                                                        APPENDIX I



                OBJECTIVE, SCOPE, AND METHODOLOGY
Objectives

       The objectives of this audit were to examine Sentinel’s effect on FBI daily
operations and its ability to expand users’ search capabilities, thereby enhancing
agents’ and analysts’ ability to link cases with similar information and share that
information with other law enforcement agencies with a need to know in order to
solve cases efficiently. We also reviewed Sentinel’s current project costs in addition
to Sentinel’s completed and planned functionality since it was deployed.

Scope and Methodology

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable based for our findings and conclusions
based on our audit objectives

       Our audit focused on users’ experiences with Sentinel’s functionality and
their ability to effectively and efficiently enter, search, and share information in the
FBI’s case management system. The scope of our review primarily encompasses
January 2013 through December 2013.

       To accomplish our audit objective, we interviewed Sentinel users, we used a
survey to assess user satisfaction with the system, examined Sentinel costs
incurred and budgeted, and reviewed improvements made to Sentinel as well as
improvements planned for Sentinel. We interviewed Sentinel users at FBI
headquarters in Washington, DC, and the FBI field offices in Baltimore, MD;
Charlotte, NC; Newark, NJ; and Philadelphia, PA.

       We designed the Sentinel user survey based on the results of these
interviews. At the time of the survey design, the FBI employees’ database
contained 36,114 employees with FBINet e-mail accounts that can only be accessed
within FBI’s network. The software used to deploy the survey resides on a
Department of Justice (DOJ) server and the link to the survey could not be sent
through the FBINet e-mail accounts from the DOJ server. The sample universe was
then reduced to the 13,989 employees with UNet e-mail accounts who can access
the survey from the DOJ server.

       To provide appropriate coverage of these e-mail account holders at FBI
headquarters, field offices, Resident Agencies, and Legal Attaché offices, we
employed a stratified sample design. In some Resident Agencies, there were four
or less employees with UNet email accounts. For these Resident Agencies, all of
their 426 employees with UNet email accounts were included in the survey sample.
The same approach was used for the 210 ECT, ELSUR Technician, OST/SST
positions and the 202 Legat employees, all of which had low numbers of employees


                                           27

with UNet email accounts. A representative random sample of 1,675 users was
selected from the remaining universe covering FBI headquarters, field offices, and
Resident Agencies.

       The following tables show the distribution of the above selected 2,513 survey
recipients and respondents by (a) the types of FBI office they work and (b) the
employees’ position titles within their respective offices:

                                          Number of Survey
                                                                       Response
  FBI Office Type       Employees
                                      Recipients Respondents             Rate

 Headquarters                 4,030             551            209             38%
 Field Offices                7,232             821            358             44%
 Resident Agencies            2,525             939            494             53%
 Legats                         202             202             89             44%
 Total                       13,989        2,513            1,150             46%


                                          Number of Survey
                                                                        Response
           Position Title
                                                                          Rate
                                      Recipients       Respondents

Special Agents                                 1,027           503               49%
All Other Position Titles                       671            257               38%
Supervisory Special Agents                      423            185               44%
Intelligence Analysts                           182             91               50%
Operational Support & Support
                                                158             83               53%
Services Technicians
ECTs & ELSUR Technicians                         52             31               60%
Total                                       2,513            1,150               46%

       The Sentinel survey recipients were placed into four main groups based on
the FBI employees’ position titles in order to capture relevant information about the
various functionalities of Sentinel. There were four different questionnaires
deployed to each of the following position title groups: (1) Special Agents,
(2) Supervisory Special Agents, (3) Technicians, and (4) All Other Position Titles.
The questionnaires generally contained the same questions, except some job-
specific questions that varied based on their job duties. The survey was deployed
between November 5, 2013, and December 4, 2013.

      We reviewed the responses and performed descriptive and statistical
analyses using the Statistical Product and Service Solutions software package.




                                         28

       The practical difficulties of conducting any survey introduce various types of
errors related to survey responses. For example, differences in how a particular
question is interpreted and differences in the sources of information available to
respondents can be sources of error. In addition, respondents might not be
uniformly conscientious in expressing their views or they may be influenced by
concerns about how their answers might be viewed by the OIG, the FBI, or the
public. We included steps intended to minimize such errors. For example, to
address differences in how questions were interpreted, we pre-tested our survey
with 41 FBI employees at FBI headquarters and 4 field offices. We modified our
survey questions based on the results of these pre-tests. In addition, we
incorporated comments from the FBI about the content and clarity of our survey.

      When we analyzed the results of our survey, we verified the results we
obtained by using our survey software by exporting the data to another software
program and performing the same analysis. The summary of our survey responses
are contained in Appendix II.

       We interviewed the FBI Chief Financial Officer and Sentinel Contracting
Officers. We also reviewed staffing charts, contract modifications, bridge contracts
and related invoices, award documentation, operations and maintenance
expenditures, and overall historical spending documentation to determine the costs
incurred as well as the status of the Sentinel budget.




                                          29

                                                                                      APPENDIX II


                   RESULTS OF ALL SENTINEL SURVEYS EXCLUDING
                      RESPONDENTS' BACKGROUND QUESTIONS
                                                         Neither
How easy or difficult was it for you to                  Easy
learn how to perform the following tasks   Very          Nor                     Very        Not
in Sentinel?                               Easy   Easy   Difficult   Difficult   Difficult   Applicable   Total
Indexing                                    121    336        255         227           80         122      1141
Search                                      111    268        190         195         113            48      925
Advanced search                              90    214        182         177         111            71      845
Set a lead to another office                162    397        164           68          13         125       929
Set a lead within your office               167    389        164           55          10          145      930
Drafting a Form                             176    349        146           48           8          117      844
Approving a Form                            106    166          69          20           3          166      530
Importing Forms                              50    100          53          24           4         115       346
Adding an Attachment                         57    122          67          16           5           80      347
Drafting a Complaint Form (FD-71)            84    217        170           55           9          390      925
Drafting an EC (FD-1057)                    232    394        128           47          10           40      851
Drafting an FD-302                          182    229          67          10           0           13      501
Request to Open a Case                      126    220          88          41           5           22      502
Request to Close a Case                     109    184        113           43           9           40      498
Approving a Lead to Another Office           58     80          31           5           1            9      184
Approving a Lead Within Your Office          61     79          28           6           2            9      185
Approving an EC (FD-1057)                   127    167          63          18           5          150      530
Approving an FD-302                          68     59          22           4           1           30      184
Approving the Opening of a Case              62     67          32           7           1           15      184
Approving the Closing of a Case              55     72          29           7           1           21      185
Destruction of evidence for closed cases      1      0           3           0           0            0           4
Updating chain of custody                     1      2           0           1           0            0           4
Evidence log (FD-192)                         6     15           5           4           0            0       30
FD-940s (Title III request form)              0      0           1           0           1            2           4
Barcode system                                7      8           8           3           1            0       27
Chain of custody related functions            5      6           4           9           3            0       27
Separating evidence (split function)          3      3           6           7           7            0       26
Inventory tasks                               1      0           3           6          10            6       26
Stat reviews                                  6     21          13           8           4           30       82
Data queries                                  6     29          18          12           7            8       80
Case migration                               14     32          12           3           1           19       81
Serialization transfers                      13     22          13           7           1           25       81
Lead requests                                11     36          16           2           1           16       82




                                                   30

 Compared to the process with
ACS, how much more or less time
  do you spend completing the          Significantly   Less       The Same   More    Significantly      Not
   following tasks in Sentinel?         Less Time      Time         Time     Time     More Time      Applicable   Total
Indexing                                        122      249           163     222            154          191    1101
Searching                                        49      111            80     70              43           71     424
Drafting a Complaint form (FD-71)                71      190           162     87              14          391     915
Drafting a form                                 100      274           224     67              19          154     838
Drafting an EC (FD-1057)                        144      309           219     76              20           79     847
Drafting an FD-302                               83      174           144     69              14           17     501
Evidence log (FD-192)                             3           7          3      8               7             2      30
FD-940s (Title III request form)                  0           0          1       0              1             2       4
Importing Forms                                  40       94            43     13               6          147     343
Separating evidence (split function)              3           1          7      8               5             2      26
Serialization transfers                           7       13            18     16               5           22       81
Set a lead to another office                    157      314           195     80              22          159     927
Set a lead within your office                   154      301           202     72              16          183     928
Stat reviews                                      7       20             8      7               7           33       82
Updating chain of custody                         0           1          1       0              2             0       4
Inventory tasks                                   1           0          1      2              14             9      27
Lead requests                                    10       22            27      2               1           20       82
Request to close a case                          85      170           120     62              14           46     497
Request to open a case                           84      188           122     61              16           29     500
Approving a lead to another office               40       61            46      21              3           12     183
Approving a lead within your office              40       60            53      16              1           14     184
Approving an EC (FD-1057)                        79      141            87     34               9          177     527
Approving an FD-302                              39       50            41      16              2           33     181
Approving the Closing of a Case                  39       52            50     17               3           22     183
Approving the Opening of a Case                  39       60            40      23              4           17     183
Adding attachments                               53      100            49     13               9          121     345
Approving a Form                                 65      128            92     34               8          199     526
Barcode system                                    3           0         10     11               0             2      26
Case migration                                    6       16            13      6               3           37       81
Chain of custody related functions                3           3          1      7              11             2      27
Cover a lead                                    114      208           128     33               4           15     502
Data queries                                      7       20            19     14               8           12       80
Destruction of evidence for closed
cases                                             0           3          0      0               1             0       4
Disposing of evidence for closed
cases                                             4           5          8      8               3             3      31
To get documents approved                       266      273           123     97              29           63     851




                                                         31

How responsive or slow is Sentinel                       Neither
when you are performing the                Very          Responsive                Very         Not
following functions?                       Slow   Slow   Nor Slow     Responsive   Responsive   Applicable   Total
Indexing                                     37    139          249          410          150          139    1124
Search                                       16     64           77          164           50           53     424
Advanced search                              13     47           58          113           38           73     342
Set a lead to another office                  9     62          185          343          132          117     848
Set a lead within your office                 7     61          187          315          142          130     842
Drafting a Form                               8     69          168          315          144          136     840
Approving a Form                              4     23           85          151           80          182     525
Importing Forms                               5     20           52          106           39          121     343
Adding an Attachment(s)                       3     19           64          120           43           98     347
Drafting a Complaint Form (FD-71)             7     55          150          234          100          352     898
Drafting an EC (FD-1057)                     11     82          164          371          165           49     842
Drafting an FD-302                            5     43           98          228          117           10     501
Request to Open a Case                        5     38          105          228          101           22     499
Request to Close a Case                       4     43          108          214           96           34     499
Approving a Lead to Another Office            2     11           41           87           31           13     185
Approving a Lead Within Your Office           2      9           42           86           33           12     184
Approving an EC (FD-1057)                     7     24           87          181           75          151     525
Approving an FD-302                           4      6           35           72           34           32     183
Approving the Opening of a Case               2     10           39           85           31           18     185
Approving the Closing of a Case               3     10           37           80           32           22     184
Destruction of evidence for closed cases      0      0            2            2            0            0       4
Updating chain of custody                     1      1            1            1            0            0       4
Evidence log (FD-192)                         3      6            8           13            1            0      31
FD-940s (Title III request form)              0      1            1            0            0            2       4
Barcode system                                3      3            6           13            2            0      27
Chain of custody related functions            6      6            2           12            1            0      27
Separating evidence (split function)          2      4            3           16            1            0      26
Inventory tasks                               7      4            5            4            0            7      27
Stat reviews                                  3      6           12           24            3           34      82
Data queries                                  1     11           16           34            7           12      81
Case migration                                3     12           17           21            4           24      81
Serialization transfers                       2      7           15           26            6           25      81
Lead requests                                 1      3           20           32            8           18      82




                                                          32

                                                         Neither
How satisfied or                                         satisfied
dissatisfied are you with        Very                    Nor                            Very           Not
the:                             Satisfied   Satisfied   Dissatisfied    Dissatisfied   Dissatisfied   Applicable   Total
transition from ACS to
Sentinel                               166         564             249            140             31          NA     1150
privileges assigned to your
user role in Sentinel                  165         630             261             61             12           21    1150
organization of
information generated from
Search                                  81         350             229            271            153           66    1150
organization of
information generated from
Advance Search                          74         343             226            248            125          134    1150
organization of
information generated from
Reports                                 68         273             238            114             75         382     1150
appearance of the
"Resolution" features
displayed on the Sentinel user
interface                              165         619             234             52             28           23    1121
appearance of the "Font
Size" features displayed on
the Sentinel user interface            155         568             217            104             49           23    1116
usefulness of the training you
received that was specific to
your job                                79         353             195             87             31           12     757

availability of policy-related
technical support for Sentinel          48         206             318             95             37          442    1146
availability of basic user
assistance (how-to) related
technical support for Sentinel          86         391             306             89             33          241    1146
availability of user-error
related technical support for
Sentinel                                64         299             330             92             38         323     1146
availability of system defects
or bugs related technical
support for Sentinel                    57         252             325            113             53         346     1146
assistance that was provided
to you for policy-related
support                                 25         150             140             46             17         766     1144
assistance that was provided
to you for basic user
assistance (how-to)                     79         355             171             44             20         476     1145
assistance that was provided
to you for user-error related
support                                 54         236             179             45             22         608     1144
assistance that was provided
to you for system defects or
bugs related support                    36         198             173             68             42          627    1144
structure of the collaboration
function within Sentinel                63         272             113            105              8          NA      561




                                                             33

Compared to ACS, how have
the following characteristics
in your unit's most common
work product(s) improved or
declined since you started           Significant   Some                    No             Some      Significant    Don't
using Sentinel?                      Improvement   Improvement             Change         Decline   Decline        Know    Total
Completeness                                 283                 354           318            53              29     113   1150
Accuracy                                     239                 329           342            85              34     121   1150
Misplaced documentation                      284                 258           263            89              55     201   1150


Overall, how often were the following
forms of technical support for Sentinel        Very                                                           Not
able to resolve your issues?                   Often      Often       Sometimes           Rarely    Never     Applicable   Total
Policy-related support                              35         108              101           74         49          779   1146
Basic user assistance (how-to)                      97         257              201           79         27          485   1146
User-error related support                          69         175              164           91         32          615   1146
System defects or bugs                              44         136              163          102         53          648   1146


How often do the following Sentinel
functions provide you with the results you     Very                                                           Not
need?                                          Often      Often       Sometimes           Rarely    Never     Applicable   Total
Search                                              99         352              365          231         34           69   1150
Advanced Search                                     93         321              366          201         36          133   1150
Reports                                             86         253              251          129         43          388   1150

As a resource for using Sentinel, how                                                                    Not at
helpful or unhelpful are each of the          Very                         Somewhat                      All       Not
following?                                    Helpful     Helpful          Helpful         Unhelpful     Helpful   Used    Total
Local Sentinel coordinator                         225          302                 168             42        27     382   1146
Sentinel Quick Guides                              93           332                 246             42        16     417   1146
Sentinel Interactive Demonstration                 56           195                 168             45        18     663   1145
Sentinel Training Videos                           57           186                 174             48        24     656   1145
Sentinel FAQs List                                 88           285                 277             43        19     434   1146


      Do you use any of the following IT systems:        Yes     No         Total
      Delta                                              644         506    1150
      FIDS                                               106     1044       1150
      CORE                                               585         565    1150
      Compass                                            144     1006       1150
      IDW                                                453         697    1150
      None of the above                                  307         842    1149




                                                               34

      Are you aware of the following resources or
      guides on Sentinel?                                    Yes    No        Total
      Local Sentinel coordinator                             826      320      1146
      Sentinel Quick Guides                                  866      280      1146
      Sentinel Interactive Demonstration                     637      509      1146
      Sentinel Training Videos                               704      441      1145
      Sentinel FAQs List                                     852      293      1145


      When using Sentinel, do you know who to
      contact to receive assistance for the
      following forms of technical support?                  Yes    No        Total
      Policy-related support                                 436      708      1144
      Basic user assistance (how-to)                         770      376      1146
      User-error related support                             619      527      1146
      System defects or bugs                                 575      570      1145


                                                                                                  Don't   Not
Question                                                                              Yes   No    Know    Applicable   Total
Was your unit provided with all the necessary equipment to use Sentinel
effectively when it was deployed in July 2012?                                        852   256      NA           42    1150

In the last 90 days, do you believe that Sentinel has allowed you to exceed
your authority to see information that you were not intended to?                       43   952     153          NA     1148
Is Sentinel missing any essential features that you believe are critical to
your duties?                                                                          417   429     303          NA     1149
Are there circumstances where you perform a mandatory paper process in
addition to a digital process within Sentinel?                                        503   489      NA          154    1146
Does the paper product have any evidentiary or substantial value that the
digital product may not?                                                              252   188      67          NA      507
Did you receive any Sentinel training that was specific to your job
responsibilities when Sentinel was deployed in July 2012?                             747   399      NA          NA     1146
Have you served in an acting capacity since Sentinel was deployed in July
2012?                                                                                 379   657      NA          NA     1036

Did you continue to have access privileges intended for the person you were
acting for after you were no longer acting in that role?                              112   246      NA           23     381
Have you ever used the collaboration function within Sentinel?                        552   124      NA           12     688
Have you received a lead in Sentinel in which you were not the intended
recipient?                                                                            381   618      NA           37    1036
Are you able to record in Sentinel the date and time of when the evidence
was actually repackaged?                                                                5    10       7          NA       22
Are you aware of any Standard Operating Procedures (SOPs) for updating
the digital (i.e. Sentinel) and the paper chains of custody?                            9   18       NA          NA       27
Have you encountered data integrity issues such as data disappearing or
not appearing as it should on the screen when sending forms
through Sentinel?                                                                      35   59       NA           20     114
Have you performed the task of repackaging evidence?                                   22     4      NA            1      27




                                                                 35

                                                  Very                                                                   Not
Question                                          Often         Often        Sometimes          Rarely      Never        Applicable         Total
How often have you received a lead not
intended for you?                                      31           45                  132       169            7              16            400
How often do you receive notifications
in Sentinel that do not apply to you?                 151           169                 186       123           47              10            686
How often do you receive ELSUR technician-
related notifications in Sentinel?                     21               3                 0            0         0                  3           27
How often do you receive evidence
technician-related notifications in Sentinel?             3             0                 0            1         0                  0            4


Compared to ACS, how often have there been
discrepancies when using Sentinel for ELSUR
evidence charged out?                                     0             1                 0            0         2                  1            4

                                                                            Neither
                                                    Very                    Easy Nor                       Very           Not
Question                                            Easy       Easy         Difficult     Difficult        Difficult      Applicable          Total
How easy or difficult is it to navigate the
Sentinel user interface (display on the
monitor)?                                            220         588               236             64             18                 23         1149
Compared to the process with ACS, how easy
or difficult is it to locate pieces
of evidence search for evidence using Sentinel?        0            4                 3            13                5                  2           27



                                  Increased       Increased         No                  Decreased          Decreased       Not
Question                          a Lot           Some              Difference          Some               a Lot           Applicable          Total
Compared to ACS, to what
extent has Sentinel increased
or decreased your daily
productivity?                              233             399                 232               140                 86                 60      1150
How has your ability to share
information with colleagues
who are not located in your
office changed since you
started using Sentinel?                    322             334                 257                26                 11                 86      1036

                                                                                     Neither
                                                   Strongly                          Agree Nor                            Strongly
Question                                           Agree             Agree           Disagree              Disagree       Disagree          Total
Do you agree or disagree that users need
Sentinel training prior to using Sentinel?                    465            528                 114             36                 3       1146
How strongly do you agree or disagree that the
Sentinel application has enhanced the FBI's
ability to carry out its mission?                             328            498                 220             73             24          1143

                                                                                                               More than 40
                                                   10 hours          11-20           21-30       31-40         Hours Per
Question                                           or Less           Hours           Hours       Hours         Week                     Total
Please estimate the number of hours per week
you used Sentinel during the past 90 days.                    355            418          223           111                    43           1150




                                                                    36

                                                           APPENDIX III


                OFFICE OF THE INSPECTOR GENERAL
                       SENTINEL REPORTS


  Report Date       Report Number                  Report Title

 February 1, 2005       05-07         The Federal Bureau of Investigation’s
                                      Management of the Trilogy Information
                                      Modernization Project

December 1, 2006        07-03         Sentinel Audit II: Status of the Federal
                                      Bureau of Investigation’s Case
                                      Management System

 August 28, 2007        07-40         Sentinel Audit III: Status of the
                                      Federal Bureau of Investigation’s Case
                                      Management System

December 18, 2008       09-05         Sentinel Audit IV: Status of the
                                      Federal Bureau of Investigation’s Case
                                      Management System

November 9, 2009        10-03         Sentinel Audit V: Status of the Federal
                                      Bureau of Investigation’s Case
                                      Management System

 March 30, 2010         10-22         Status of the Federal Bureau of
                                      Investigation’s Implementation of the
                                      Sentinel Project

October 19, 2010        11-01         Status of the Federal Bureau of
                                      Investigation’s Implementation of the
                                      Sentinel Project

December 22, 2011       12-08         Status of the Federal Bureau of
                                      Investigation’s Implementation of the
                                      Sentinel Project

September 7, 2012       12-38         Interim Report on the Federal Bureau
                                      of Investigation’s Implementation of
                                      the Sentinel Project




                                37

                                                                                           APPENDIX IV


FEDERAL BUREAU OF INVESTIGATION RESPONSE TO THE 

              DRAFT AUDIT REPORT 





                                                       U.S. D e p~rtment of Justice

                                                       Fedeml Bureau of Investigation


                                                       Wash ington, D. C. 20535-0001

                                                       September 12, 2014




   The Honorable Michacl E. Horowitz
   Inspector General
   OOice of the Inspector General
   U.s. Department of lustice
   950 Pcnnsylvania Avenue, N.W.
   Washington, DC 20530

   Dear Mr. Horowi tz:

          The Federal Bureau of Investigation (FB I) appreciates the opportunity to rcview and
   respond to your office's report entitled, AlIdiJ oflhe Stallis of the Federal BlIreall of
   Inw:sligalion's Sentinel Program.

           We are pleased you found, "The majority of FBI employees responding to our survey
   reported that Sentinel had an overall positive impact on the FB I' s operations, making the FBI
   better able to carry out its mission, and better able to share information." The majority of
   respondents also noted the " positive impact" on the FBI 's efficiency in several areas with the
   deployment of Sentinel .

           We appreciate the collaboration you afforded us on developing the survey questions,
   recognizing the value added by permitting the FBI to also gather critical user feedback . The FBI
   remains committed to making Sentinel enhancements to meet mission needs to the best of our
   ability. In that regard, we concur with the three recommendations made to the FBI and have
   already taken steps to implement them. Plcase find enclosed our responses.

           Should you have any questions. feel free to contact me. We appreciate the
   professionalism of your audit staff throughout this matter.




                                                         ~~r(?/L-
                                                         J rey Johnson
                                                         Assistant Director
                                                         Infonnation Technology Engineering
                                                          Division




                                                   38

                The Federal Bureau of Investigation's (FBI) Response to the
    Office of the Inspector General's Audit of the Status of the FBI's Sentinel Program
                           Response to Report RecommendafioDs

Report Recommendation NI: "Evaluate the progress that FBI field offices have made in
ensuring that OSTs are fully and effectively performing administrative tasks within Sentinel to
optimally reduce the administrative responsibilities of Special Agents."

FBI Response to Recommendation #1: Concur. The FBI will evaluate the progress that FBI
field offices have made to ensure that OSTs are fully and effectively performing administrative
tasks within Sentinel to optimize the reduction in administrative responsibilities of Special
Agents.

Report Recommendation #12: "Solicit user feedback on Sentinel to ensure improvements made
to the search function adequately reflect user needs."

FBI Response to Recommendation #2: Concur. The FBI will solicit the feedback of Sentinel
users to ensure search function improvements effectively reflect the user needs.

Report Recommendation N3: "Continue to research technological solutions and review
business processes and policies to identify ways to reduce the time it takes users to index large
unstructured documents."

FBI Response to Recommendation #13: Concur. The FBI will research technological solutions
and review business processes and policies to identify ways to reduce the time it takes users to
index large W1structured documents.




                                                 39

                                                                     APPENDIX V


                 OFFICE OF THE INSPECTOR GENERAL 

                ANALYSIS AND SUMMARY OF ACTIONS 

                  NECESSARY TO CLOSE THE REPORT



       The Office of the Inspector General (OIG) provided a draft of this audit report
to the Federal Bureau of Investigation (FBI). The FBI’s response is incorporated in
Appendix IV of this final report. The following provides the OIG analysis of the
actions necessary to close the report.

Recommendation:

   1. Evaluate the progress that FBI field offices have made in ensuring
      that Operational Support Technicians (OST) are fully and effectively
      performing administrative tasks within Sentinel to optimally reduce
      the administrative responsibilities of Special Agents.

      Resolved. The FBI concurred with this recommendation. In its response, the
      FBI stated that it will evaluate the progress that FBI field offices have made
      in ensuring that OSTs are fully and effectively performing administrative
      tasks within Sentinel to optimize the reduction in administrative
      responsibilities of Special Agents.

      This recommendation can be closed when we receive evidence that the FBI
      has completed evaluations of its field offices’ progress to ensure that OSTs
      are fully and effectively performing administrative tasks within Sentinel. This
      would include evidence that the administrative responsibilities of Special
      Agents in FBI field offices have been reduced.

   2. Solicit user feedback on Sentinel to ensure improvements made to
      the search function adequately reflect user needs.

      Resolved. The FBI concurred with this recommendation. In its response, the
      FBI stated that it will solicit user feedback of Sentinel users to ensure search
      function improvements effectively reflect user needs.

      This recommendation can be closed when we receive evidence that the FBI
      has continued to solicit user feedback on the search function and that the
      feedback was used to make improvements that reflect user needs. For each
      improvement made as a result of this user feedback, the FBI should provide
      the OIG with a detailed description of the change made and how the search
      function was improved as a result.




                                         40

3. Continue to research technological solutions and review business
   processes and policies to identify ways to reduce the time it takes
   users to index large unstructured documents.

  Resolved. The FBI concurred with this recommendation. In its response, the
  FBI stated that it will research technological solutions and review business
  processes and policies to identify ways to reduce the time it takes users to
  index large unstructured documents.

  This recommendation can be closed when we receive documentation showing
  that the FBI has researched additional technological solutions and reviewed
  business processes and policies to identify ways to reduce indexing time for
  large unstructured documents in Sentinel. For each solution implemented
  and each business process or policy adjustment made, the FBI should
  provide the OIG with a clear description of the change and the resulting
  improvements.




                                   41

